w§Ir*

No.

'Cva

1

ilfil

in tl)t Supreme Court of tfje ©ntteb States;
Supreme Court, U.S.
FILED

JUN 0 2 2021
Robert Pilchman

OFFICE OF THE CLERK
Petitioner,

v.

National Labor Relations Board, et al.,
Respondents.

Robert Pilchman,
Petitioner,

v.
Brooklyn Public Library,
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STA TES
COURT OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR WRIT OF CERTIORARI
Robert Pilchman
Pro Se
3030 Ocean Avenue, Apt 3F
Brooklyn, New York 11235
(646) 318-6466
r_pilchman@msn.com

PREFACE
Petitioner is Robert Pilchman (Pro Se); I reside in the Eastern District of
New York.

I am requesting
reasonable accommodation from the Court; in or around January 2013,1 was
diagnosed as having bipolar disorder - prior to that I was diagnosed as having
Obsessive Compulsive Disorder with panic attacks. I am including medical
documentation (-Appendix F; please also see Appendix E).

QUESTIONS PRESENTED

1.

Whether a government agency like the National Labor Relations Board has
absolute discretion in all of its non-enforcement decisions and thus such
decisions are never subject to judicial review (as the 2nd Circuit has just
affirmed in my situation) or that there is not absolute discretion in every
non-enforcement decision and thus it is possible that there would be
exceptions, such as in my situation, in which there is judicial review, as the

1

9th Circuit held in Montana Air Chapter No. 29 v. FLRA, 898 F.2d 753 (9th
Cir. 1990 and in International Association ofMachinists and Aerospace
Workers v. A Lubbers, 681 F.2d 598 (9th Cir. 1982) - in accordance with
the U.S. Supreme Court in Leedom v. Kyne, 358 U.S. 184, 79 S.Ct 180, 3
L.Ed.2d 210 (1958), Rochester Telephone Corp. v. United States, 307 U.S.
125, 143 (1939), and Heckler v. Chaney, 470 U.S. 821 (1985).

2.

In Wolin v. Port ofNew York Authority, 392 F.2d 83 (2d Cir. 1968), the
Second Circuit held of the applicability of the First Amendment with regard
to the Port of New York Authority (Note: “cert, denied 393 U.S. 940, 89
S.Ct. 290, 21 L.Ed.2d 275 (1968)”) stating that “the Terminal is dedicated
to the public use, to no less a degree than the streets of a company owned
town, Marsh v. State of Alabama, 326 U.S. 501, 66 S.Ct. 276, 90 L.Ed. 265
(1946)” and yet, in my situation, the Second Circuit affirmed the U.S.
District Court not applying the First Amendment with regard to the
Brooklyn Public Library - in contradiction to the U.S. Supreme Court
decision of Marsh v. State ofAlabama, 326 U.S. 501, 66 S.Ct. 276, 90
L.Ed. 265 (1946).

3.

The U.S. District Court (EDNY) and the Second Circuit never provided me
with an opportunity to amend or supplement any of my complaints even

n

though I am a pro se litigant diagnosed as disabled; is the refusal to grant
me such an opportunity acceptable?

4.

After U.S. District Court Judge Townes passed away, my cases were
assigned to U.S. District Court Judge Kuntz; unlike Judge Townes, when
Judge Kuntz granted my adversaries dismissals of the remaining
complaints, Judge Kuntz wrote “NOT FOR PUBLICATION” [Emphasis
in the original]. In addition, when the Second Circuit affirmed the
dismissals via Summary Order it stated “RULINGS BY SUMMARY
ORDER DO NOT HAVE PRECEDENTIAL EFFECT” [Emphasis in the
original]. Does this sound like the Second Circuit followed the law, did not
follow the law, and/or even knows what the law is - as Justice Marshall
warned in Hecklerl

in

PARTIES TO THE PROCEEDING(S)

Petitioner is Robert Pilchman (Pro Se); I reside in the EDNY.

Respondents are National Labor Relations Board (“NLRB”); New York
State Public Employment Relations Board (“NYSPERB”); New York State
Division of Human Rughts (“NYSDHR”); Brooklyn Public Library (“BPL”/ “the
Library”); Brooklyn Library Guild Local 1482 of the American Federation of
State, County, and Municipal Employees, AFL-CIO (“the Union”); District
Council 37 of the American Federation of State, County, and Municipal
Employees, AFL-CIO (“the Union”).

IV

TABLE OF CONTENTS
PREFACE

1

QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEEDING(s)

IV

TABLE OF CONTENTS

v

INDEX OF APPENDICES

vi

TABLE OF AUTHORITITIES

IX

OPINIONS BELOW

1

BASIS FOR JURISDICTION

2

CONSTITUTIONAL PROVISIONS, TREATIES, STATUTES, ORDINANCES
AND REGULATIONS INVOLVED IN THE CASE

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING WRIT

5

CONCLUSION

39

v

INDEX OF APPENDICES
Appendix A

Consolidated Decision of the U.S. Court of Appeals
(2nd Cir.) (17-1697 (L) 20-52 (CON) 20-66(CON))

Appendix B

Decisions of the U.S. District Court (EDNY) (14-CV7083 15-CV-3176 15-CV-3641)

Appendix C

U.S. Court of Appeals Denial of Timely Filed Petition
for Rehearing (2nd Cir.) (17-1697 (L) 20-52 (CON) 2066(CON))

Appendix D

U.S. Court of Appeals Statement of Costs (2nd Cir.)
(17-1697 (L) 20-52 (CON) 20-66(CON))

Appendix E

Adjusted Gross Income (2020, 2019, 2018)

Appendix F

Medical Notes

Appendix G

Michael C. McClintock, Enterprise Labor and the
Developing Law ofEmployee Job Rights-Part Two
(Gonzaga Law Rev. (Vol. 8; p. 288-89 (1973)))

Appendix H

Motion to Dismiss by NLRB (pages 12-15) (Docket
No. 30(15-1799 (2nd Cir.)))

vi

Appendix I

NLRB’s Reply to Opposition (pages 1-4) (Docket No.
55 of 15-1799 (2nd Cir.)))

Appendix J

Letter (dated June 19, 2015) from James E. Tatum, Jr.
(Counsel to the Inspector General, NLRB) denying my
FOIA request(s) (Exhibit # 2 of Docket # 14 of 15CV-3176-SLT-SMG (EDNY))

Appendix K

E-mail (dated 1/8/2014) from Robert Pilchman to the
Inspector General of NLRB

Appendix L

Second Circuit dismissal of petition for review
w/Mandate (15-1799 (2nd Cir.))

Appendix M

Memo of Opposition to Dismissal (w/Cross Motions)
(14-CV-7083)

Appendix N

Memo of Opposition to Dismissal (w/Cross Motions)
(15-CV-3176)

Appendix O

Memo of Opposition to Dismissal (w/Cross Motions)
(15-CV-3641)

Appendix P

National Labor Relations Act (NLRA)

Appendix Q

NYS (i.e. New York State) The Taylor Law (Public
Employees' Fair Employment Act)

Vll

Appendix R

NYS (i.e. New York State) The State Employment
Relations Act (SERA)

Appendix S

Administrative Procedure Act (APA)

Appendix T

Freedom of Information Act (FOIA)

Appendix U

NYS (i.e. New York State) Freedom of Information
Law (FOIL)

Appendix V

Americans with Disabilities Act (ADA)

Appendix W

NYS (i.e. New York State) Human Rights Law

vm

TABLE OF AUTHORITIES
CASES

Abbott Laboratories v. John W. Gardner,
387 U.S. 136(1967)

30

Amador County v. Kenneth Lee Salazar,
(D.C. Cir. 2011)

42

American Farm Bureau v. EPA,
121 F. Supp. 84 (D.D.C. 2000)

30

Appalachian Power Company, et al. v. Environmental Protection
Agency, 208 F.3d 1015 (D.C. Cir. 2000)
30
Associated Builders and Contractors Inc v. Irving,
610 F. 2d 1221 (4th Cir. 1979)

16, 23

Carter/Mondale Presidential Campaign v. Federal Election
Comm 'n, 711 F.2d279 (D.C. Cir. 1983)

30

Christ the King Regional High School v. Culvert,
815 F.2d 219 (2nd Cir. 1987)

19, 22

Clark v. Mark,
590 F. Supp. 1, 6 (N.D.N.Y. 1980)

18

Conley v. Gibson,
355 U.S. 41, 45-46 (1957)

39

Dow Chemical v. Consumer Product Safety Commission,
459 F. Supp. 378 (W.D. La. 1978)

30

Eagle-Picher Industries Inc v. United States Environmental
Protection Agency, (1985) (759 F. 2d 905)

29

Fidelity Television, Inc. v. FCC,
502 F.2d 443 (D.C. Cir. 1974)

30,31
ix

Foman v. Davis, 371 U.S. 178, 182,
83 S.Ct. 227, 230, 9 L.Ed.2d 222 (1962)

34

Goethe House N.Y., German Cultural Ctr. v. NLRB,
869 F.2d 75, 77-78, 80 (2d Cir. 1989)

21

Goldlawr, Inc. v. Heiman,
369 U.S. 463 (1962)

27-28

Haines v. Kerner, 404 U.S. 519, 520-21, 92
S.Ct. 594, 595-96, 30 L.Ed.2d 652 (1972)

39

Heckler v. Chaney,
470 U.S. 821 (1985)

ii, iii, 16-17,21-23

Hooks v. Kitsap Tenant Support Services Inc., 13-CV-5470 (BHS)
(W.D. Wash. Aug. 13, 2013) (Docket # 43)
28

Hourihan v. National Labor Relations Board et al,
201 F.2d 187 (D.C. Cir. 1953)

15

International Association ofMachinists and Aerospace Workers v. A Lubbers,
681 F.2d 598 (9th Cir. 1982)
ii, 16, 17, 22, 23

International Longshoremen's Ass 'n v. National Mediation Bd.,
785 F.2d 1098, 1100 (D.C.Cir.1986)
18,22
International Union, United Automobile, Aerospace & Agricultural Implement
Workers v. Brock, 783 F.2d 237, 245 (D.C.Cir.1986) ... 18
Leedom v. Kyne,
358 U.S. 184, 79 S.Ct. 180, 3 L.Ed.2d 210 (1958)...

ii, 21, 22

Marsh v. State ofAlabama,
326 U.S. 501, 66 S.Ct. 276, 90 L.Ed. 265 (1946) ...

ii, 33, 35

Massachusetts v. EPA,
549 U.S. 497 (2007)

17

Matthews v. City ofNew York, No. 13-2915-cv,
2015 WL 795238 (2d Cir. Feb. 26, 2015)

...

31

Montana Air Chapter No. 29 v. FLRA,
898 F.2d 753 (9th Cir. 1990)

ii, 17, 18, 22, 23,24

National Labor Relations Board v. Noel Canning,
573 U.S. 513(2014)

28

Natural Resources Defense Council v. EPA,
22 F.3d 1125 (D.C. Cir. 1994)

30

New York City Employees’ Retirement Sys. v. SEC,
45 F.3d 7 (2d Cir. 1995)

21

NLRB v. The Natural Gas Utility District of Hawkins County,
Tennessee, 402 US 600 (1971)

4, 18

Oryszak v. Sullivan,
576 F.3d 522 (D.C. Cir. 2009)

29

Panama Canal Company v. Grace Line Grace Line,
356 U.S. 309 (1958)

16

Patent Office ProflAss’n v. FLRA,
128 F.3d 751, 753 (D.C. Cir. 1997) (“POPA”)

22

Pitchman v. NLRB,
831 Fed. Appx. 46 (Mem) (2d Cir. 2020)

1

Rochester Telephone Corp. v. United States,
307 U.S. 125, 143 (1939)

ii, 16-17, 20, 23

Retail Store Employees Union Local Retail Clerks International
Association v. Rothman, 298 F.2d 330 (D.C. Cir 1962) ...
Wolin v. Port ofNew York Authority,
392 F.2d 83 (2d Cir. 1968)

ii, 32, 35
xi

15

cert, denied
393 U.S. 940, 89 S.Ct. 290, 21 L.Ed.2d275 (1968)

... ii, 32

CONSTITUTION
United States Constitution First Amendment

ii, 2, 3, 10,31-35

United States Constitution Fourteenth Amendment

2, 10,31,33-5

New York State Constitution Article 1, §8

2, 10,31,35

STATUTES

5U.S.C. §702

21

28 U.S.C. § 1254

2

28 U.S. Code § 1406(a)

28

42 U.S.C. §1983

10,31

Administrative Procedure Act (APA)

viii, 3, 14,21,27,31

Americans with Disabilities Act (ADA)

viii, 3, 11, 35-8

FMLA (Family and Medical Leave Act)

8

Freedom of Information Act (FOIA)

vii, viii, 3, 10, 11, 26, 38

National Labor Relations Act (NLRA)

vii, 3, 9, 13-14

NYS (i.e. New York State)
Freedom of Information Law (FOIL)

viii, 3, 10, 38

NYS (i.e. New York State) Human Rights Law (HRL) ...

viii, 3, 37, 38

NYS (i.e. New York State)
The State Employment Relations Act (SERA) ...

vii, 3, 9, 21

Xll

NYS (i.e. New York State) The Taylor Law
(aka Public Employees’ Fair Employment Act) ...

vii, 3, 9, 21, 24

NY Civil Service Law § 209-a.4 (c) (of the
Taylor Law (aka Public Employees’ Fair Employment Act))... 24
NYS (i.e. New York State)
Freedom of Information Law (FOIL)

viii, 3, 10, 38

RULES
FRCP 12(b)

passim

FRCP 15(a)

34

Rules and Regulations of the NLRB (Section 102.19) ...

25

LAW JOURNALS

Martin Flumenbaum and Brad S. Karp,
Clarifying Bounds ofProtected Speech for Public Employees
(New York Law Journal (Volume 253 No. 56;
Wednesday, March 25, 2015))
31
Michael C. McClintock,
Enterprise Labor and the Developing Law ofEmployee Job Rights-Part
Two (Gonzaga Law Rev. (Vol. 8; p. 288-89 (1973)))
...
13, 15

MISC.
Claim Splitting

11, 12

DFR (Duty to provide Fair Representation)

34, 45

Xlll

•f

l

Res Judicata

37

i

i

\

5

?

*»

I
i

r

t

[

(
i

1

i

!

I

f
I

!

I

i

;

xiv

OPINIONS BELOW

The opinion of the U.S. Court of Appeals (Second Circuit) is included in
Appendix A. The opinions of the U.S. District Court (EDNY) are included in
Appendix B (Note: After U.S. District Court Judge Townes passed away, the cases
were assigned to U.S. District Court Judge Kuntz; thus, the first opinion is from Judge
Townes and the remaining two opinions are from Judge Kuntz. The U.S. Court of
Appeals consolidated my appeals). I asked an attorney to check if any of the opinions
have been published / reported. Apparently, the opinion (granting my adversaries
dismissal of my case 14-CV-7083) issued by the late U.S. District Judge Townes
(EDNY) was published but not reported, the opinions (granting my
adversaries/adversary dismissal of my cases 15-CV-3176 and 15-CV-3641)) issued by
the U.S. District Judge Kuntz (EDNY) was not published and was not reported, and
the opinion of the Second Circuit affirming all three of the dismissals was both
published and reported. To quote from the response that I received
“I found two case decisions that have been published and available on West
Law. The EDNY decision is not “reported,” meaning published in one of the
federal reporters, but it is published on West Law ... The 2nd Circuit decision
appears to have been published and reported in a federal reporter. The citations
for the two decisions are...
Pilchman v. NLRB, 14-cv-7083 (SLT) (SMG), 2017 WL 1750300
(E.D.N.Y. May 3, 2017)
Pilchman v. NLRB, 831 Fed. Appx. 46 (Mem) (2d Cir. 2020)”

1

BASIS FOR JURISDICTION

The Second Circuit Court of Appeals denied my timely request for rehearing on
March 5, 2021 (Appendix C) (and issued a statement of costs against me on March 19,
2021 (Appendix D)).
The jurisdiction of this Court is invoked pursuant to 28 U.S.C. § 1254(1).

CONSTITUTIONAL PROVISIONS, TREATIES, STATUTES, ORDINANCES
AND REGULATIONS INVOLVED IN THE CASE

First Amendment: “Congress shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances.”
Fourteenth Amendment (due process clause): "No State shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection of the laws."
NYS (i.e. New York State-) Constitution Article I. $8 : “"Freedom of Speech and Press;
Criminal Prosecutions for Libel Every citizen may freely speak, write and publish his
or her sentiments on all subjects, being responsible for the abuse of that right; and no
law shall be passed to restrain or abridge the liberty of speech or of the press. In all
2

criminal prosecutions or indictments for libels, the truth may be given in evidence to
the jury; and if it shall appear to the jury that the matter charged as libelous is true, and
was published with good motives and for justifiable ends, the party shall be acquitted;
and the jury shall have the right to determine the law and the fact.”
National Labor Relations Act (NLRA) - See Appendix P
(NYS') The Taylor Law (Public Employees' Fair Employment Act) - See Appendix Q
(NYS) The State Employment Relations Act (SERAI - See Appendix R
Administrative Procedure Act (APA) - See Appendix S
Freedom of Information Act (FOIA) - See Appendix T
(NYS') Freedom of Information Law (FOIL') - See Appendix U
Americans with Disabilities Act (ADA') - See Appendix V
(NYS') Human Rights Law - See Appendix W

STATEMENT OF THE CASE

On or around December 4, 2014,1 filed the complaint of 14-CV-7083 (EDNY).
On or around June 2, 2015, after there were subsequent violations, I filed the
complaint of 15-CV-3176 (EDNY). On or around June 23, 2015, after I learned that
the First Amendment also apparently applies to the Brooklyn Public Library, I filed the
complaint of 15-CV-3641 (EDNY). On or around May 24, 2017,1 filed the Notice of
Appeal for 14-CV-7083 (EDNY) (2nd Cir: 17-1697 (L)). In or around January 2018,
3

the (fully briefed) motions to dismiss were submitted in 15-CV-3176 (EDNY) and 15CV-3641 (EDNY). On or around February 21, 2018, the cases (14-CV-7083 (EDNY),
15-CV-3176 (EDNY), and 15-CV-3641 (EDNY)) were assigned to Judge Kuntz (after
Judge Townes passed away). On or around January 3, 2020,1 filed the Notice of
Appeal for 15-CV-3176 (EDNY) (2nd Cir: 20-52(Con)) and the Notice of Appeal for
15-CV-3641 (EDNY) (2nd Cir: 20-66(Con)) The Second Circuit dismissed 171697(L) (20-52 (Con)) and 20-66(Con) on December 18, 2020 and denied my timely
request for rehearing on March 5, 2021.

Note: Subsequent to at least one of the defendants apparently questioning whether or
not the U.S. District Court would be an appropriate place to initiate review of the
NLRB, I also filed a petition for review in the Second Circuit (15-1799) which was
dismissed. To elucidate, BPL in its reply (in support of its Motion to Dismiss) (i.e.
Docket # 65 (of 14-CV-7083 (EDNY))) objected “Moreover, as noted above, the
procedural path by which the Hawkins County case arrived at the Supreme Court did
not involve a stop at a federal district court. Therefore, Hawkins County does not
support Plaintiffs argument that this Court has subject matter jurisdiction over his
claims.” Clearly, BPL seems to have objected to initiation in the District Court. Thus,
after I sustained subsequent injuries, given my concern for timeliness and the question
of initiation at the District level and/or the Circuit level, I filed (on or around June 2,
2015) the subsequent action (15-CV-3176-SLT-SMG) in the District Court (EDNY)
and the petition for review (15-1799) in the Circuit Court (2nd Cir.).
4

REASONS FOR GRANTING WRIT

A.

Background.
1.1 began my employment with the Brooklyn Public Library on or around June

8, 1998 and was a member of the Union (Brooklyn Library Guild and DC 37)
throughout my employment. As part of campaign literature (for a Union election) in
the autumn of 2011,1 paid for the DC 37’s composition and mailing of postcards to
more than 900 people (listed in DC 37 as members of the Brooklyn Library Guild).
The postcard stated:
Dear Union Colleagues,

I am a candidate for a couple of positions in the Brooklyn Library Guild.
In the event, that you wish to contact me, I may be reached at
r_pilchman@msn.com In addition, the wiki, bpl-rebel at
wikispaces.com may be of interest; hopefully some useful information
(less suppressed and more accessible) will be available (- http://bplrebel.wikispaces.com/ ). In short, I believe that it is essential that (1) we
have opportunity for communication (without fear of reprisal) and (2)
our rights (under the Collective Bargaining Agreement(s) etc.) are
upheld.

5

Sincerely,
Robert Pilchman (Union member since June 1998)

2. Starting on or around July 17, 2012, the Brooklyn Public Library (‘BPL7
‘the Library’), ordered me to remove ‘inappropriate’ postings from the website
mentioned in my Union postcard to my coworkers (- http://bpl-rebel.wikispaces.com/)
based on its belief that I posted and could remove postings. (Note: (1) Wikispaces
was a website that allowed groups to engage in concerted communication (- including
in somewhat private and anonymous communication); (2) BPL never gave me any
power (administrator or otherwise) to post / remove postings on Wikispaces.)
3. Even if I had any power (obtained NOT by way of my being a Library
employee) to post or remove postings from the Wikispaces website, I didn’t see
anything posted that was not protected communication. In any event, after the postings
were not removed, a hearing took place, and the hearing officer (Larry Jennings (i.e.
BPL’s Director of Human Resources)) issued a decision that I must remove any
‘inappropriate’ postings within a certain number of days and that I was to receive a 10
day suspension without pay.
4. On “Tuesday, November 20, 2012 10:39 PM” (i.e. on my own time (i.e.
NOT on employee time)), I sent an email (from my personal (i.e. NOT employee)
email account) in which I appealed the decision of the hearing officer to Richard
Reyes-Gavilan (i.e. the Director of the Library and Chief Librarian) (Please note
“ARTICLE XIV: GRIEVANCE PROCEDURE” (Section C) of the working
6

conditions contract (- accessible at http://www.locall482.org/working-conditionscontract.html#article%2014 -) (which is one of the Collective Bargaining Agreements
between the BPL and the Union) provides employees (which included me when I was
employed by the Library) the right to appeal (on my own time (i.e. NOT employee
time)) (as part of the grievance procedure)).
5. My email appealing the 10 day suspension was deemed by the Library to be
inappropriate and I was terminated on April 26, 2013. In particular the Library
objected to the email because
(i)

The email stated ’’Thus, although a substantial number of the trustees are

appointed by the Mayor of New York and the Borough President of Brooklyn, the
question remains to what extent the Brooklyn Public Library is nevertheless an ’’out of
control train wreck” (- to use the expression of Ed Jelen)?”.
(ii)

The email stated "even Richard Reyes-Gavilan (Director of the Library and

Chief Librarian), who is relatively new at the Brooklyn Public Library, clearly appears
to have demonstrated ruthless incompetence (and possibly worse)”.
(iii)

I not only sent the email to the Chief Librarian (Richard Reyes-Gavilan) but I

also sent it to other recipients such as “Michael Bloomberg (Mayor of New York
City), Marty Markowitz (Brooklyn Borough President), Christine Quinn (New York
City Council Speaker), John Liu (New York City Comptroller), and Jonathan Lippman
(Chief Judge of the State of New York))”)” (By the way, I also had sent the email to
Union leadership, various employees of the Library (such as my supervisors),
members of the NLRB (i.e. National Labor Relations Board), NYSPERB (i.e. New
7

York State Public Employment Relations Board), NYSDHR (i.e. New York State
Division of Human Rights), NYSED (i.e. New York State Education Department), and
my attorneys.)
6. Prior to my being terminated, I was placed on medical leave (under the
FMLA) - to quote from the Union (as represented by Fausto E. Zapata, Jr. (Esq.)) in its
arbitration “CLOSING BRIEF IN SUPPORT OF LOCAL 1482, DC37, AFSCME,
AFL-CIO, GRIEVANCE CHALLENGING THE BROOKLYN PUBLIC
LIBRARY’S ACTIONS IN WRONGFULLY SUSPENDING AND WRONGFULLY
TERMINATING THE GRIEVANT, ROBERT PILCHMAN” (page 11) “On or
around January 15, 2013, the Grievant was diagnosed as having bipolar disorder, and
was granted medical leave for almost 12 weeks. See, UNION # 5; Testimony of Larry
Jennings and Grievant. Effective on April 3, 2013, the Grievant was placed back on
“suspension with pay”. See, BPL # 14, Page 21-22.”. Indeed, (prior to my being
terminated) I provided BPL with medical notes from the treating physicians - the
primary care physician (a licensed and board certified Internist (Hal J. Kazdin, M.D.))
and the licensed and board certified psychiatrist (Nasser Sedaghatpour, M.D.) that I
am able to return to work at full duty; in April 2013 (prior to my being terminated) I
provided a medical note to the BPL from Dr. Sedaghatpour that states “The above
patient is under psychiatric treatment. He has made significant progress and it is
reasonable to believe that he will not have any further misconduct in his job and he is
able to follow direction from his supervisor” and that states “As an option for
progressive discipline I recommend that he be placed on probation”.
8

7.1 filed charges with the NLRB against BPL under the NLRA for violating my
right to engage in concerted activity and also with NYSPERB under the Taylor Law
(New York State State) and The State Employment Relations Act (SERA) (New York
State State) (Note: The Taylor Law is for the public sector and SERA is for the private
sector). (Note: I also included charges against the Union for failing to provide fair
representation under NLRA and the Taylor law - but not under SERA because SERA
does NOT offer this option)
8. NLRB’s General Counsel concluded that it would not pursue my charges
(with the only explicit reason offered because of lack ofjurisdiction because NLRB
holds that BPL is a political subdivision and thus NLRA doesn’t apply to BPL) but the
NYSPERB dismissed my public sector charges against the BPL (taking the apparent
contradictory rationale that BPL is private sector) (and thus there were no charges at
all remaining against the UNION).
9.1 filed a complaint in U.S. district court (14-CV-7083 (EDNY)) that BPL is
private - NOT a political subdivision, and as such the NLRB should be reversed or else
the EDNY -via supplemental jurisdiction - should reverse NYSPERB dismissing my
public sector charges. (By the way, NYSPERB would be preempted by NLRB)
10. While the prior complaint (14-CV-7083 (EDNY)) was still pending, after
additional charges were dismissed by NLRB, I filed another complaint in U.S. district
court (15-CV-3176 (EDNY)). In addition, in this complaint, I asked “that the Court
please require appropriate continued processing by the NYSDHR (- ‘Mandamus to
Compel’)”. I also asked "that the Court please require NLRB, PERB, NYSDHR, and
9

(if applicable) BPL to adhere to its obligation(s) under FOIA/FOIL". (Note: For
example, it is especially important to receive information from the investigation(s) of
the Office of the Inspector General of NLRB to find evidence showing to what extent
discrimination based on race, religion, creed, disability, perceived orientation,
retaliation for opposition to discrimination, protected communication (whether
political or otherwise) significantly impacted the NLRB’s dismissals.)
11. After learning that the Brooklyn Public Library is obligated (even if BPL is
a private entity) to adhere the First Amendment of the U.S. Constitution and while the
prior complaints (14-CV-7083 (EDNY) and 15-CV-3176 (EDNY)) were still pending,
I filed another complaint in U.S. district court (15-CV-3641 (EDNY)) - "a complaint
under 42 U.S.C. §1983 alleging that the Brooklyn Public Library retaliated against me
in violation of the First Amendment of the U.S. Constitution and Article I, §8 of the
New York State Constitution ... and the Fourteenth Amendment of the U.S.
Constitution ..." (Note: The Fourteenth Amendment made the First Amendment also
applicable to state and local governments.). I also included an EEOC right to sue letter
but stated “I am NOT currently bringing this lawsuit in federal court against the
Brooklyn Public Library (to any extent) on the basis of any BPL violation of
discrimination* of a protected class such as disability etc. and the reason that I
mentioned about the EEOC’s right to sue letter (Exhibit # 9) is purely for
informational purposes - not as any type of prerequisite for any existing lawsuit”
because “I also received an email from Aracely Ruiz (of NYSDHR) that stated “Your

10

correspondence has been deemed a reopening request and will be forwarded to the
General Counsel’s office for further review.
12. In U.S. District Court, to counter the Motions to Dismiss of my adversaries
I submitted Memos of Oppositions with (Cross) Motion(s) (Appendix M, Appendix N,
and Appendix O). In particular:
In 14-CV-7083 (EDNY) (Appendix MI I requested to be allowed to amend the
complaint/summons M[i]f there is any fatal deficiency in my complaint/summons".
In 15-CV-3176 (EDNY) (Appendix N) I requested (i) to be allowed to file an
amended complaint if the Court “finds any fatal deficiency in my Complaint” or if the
“if there is not permission granted to file an amended complaint in 15 -CV-3 641 ” (ii)
"that as many of the actions as possible be merged if merging would decrease my
vulnerability to “claim splitting” (or to anything else)." (iii) regarding my pursuit of
information under the FOIA to address any failure on my part to exhaust my
administrative remedies “permission to file a supplemental complaint (and if this
would materialize then any issue of failure to exhaust administrative remedies would
appear to become moot). (Thus, I am also opposed to the NLRB’s Motion for
Summary Judgment.)”
In 15-CV-3641 (EDNY) (Appendix O) I requested (i) “permission to file an
amended complaint in this instant action” explaining that I “am seeking permission to
amend such that I may seek redress for BPL violating my rights under the ADA
(Americans with Disabilities Act)” (ii) "request that as many of the actions as possible
be merged if merging would decrease my vulnerability to “claim splitting” (or to
11

anything else).” (iii) “permission to supplement” if a subsequent action “could be
vulnerable to “claim splitting
13. The U.S. District Court dismissed all three of my complaints and did not
grant me any of my (cross) motions.
Regarding 14-CV-7083 (EDNY): The late U.S. District court Judge Townes
held that (A) my “claims against the NLRB must be dismissed” because “Plaintiff has
not and cannot meet his burden to establish subject matter jurisdiction over the NLRB
General Counsel’s decisions” “not to prosecute”(B) my “claims against the remaining
Defendants must also be dismissed” “because the Court “cannot exercise supplemental
jurisdiction unless there is first a proper basis for original federal jurisdiction”” (C)
“leave to amend is denied” because “leave need not be granted where it would be
futile”. I appealed to the Second Circuit (17-1697 (2nd Cir.)).
Regarding 15-CV-3176 (EDNY): U.S. District court Judge Kuntz granted the
Defendants’ Motions to Dismiss and did NOT grant my (cross) motions stating that
“the Court finds the Complaint fails to state a claim upon which relief can be granted”.
I appealed to the Second Circuit (20-52 (2nd Cir.)).
Regarding 15-CV-3641 (EDNY): U.S. District court Judge Kuntz granted the
Defendants’ Motions to Dismiss and did NOT grant my (cross) motions stating that
“the Court finds the Complaint fails to state a claim upon which relief can be granted”.
I appealed to the Second Circuit (20-66 (2nd Cir.)).

12

14. The Second Circuit consolidated the appeals (17-1697 (LEAD) 20-52
(CON) 20-66 (CON)) and affirmed the opinions issued in district court dismissing my
complaints and not granting me any of my (cross) motions.

B.

Judicial Review of non-enforcement decisions of NLRB

The U.S. District Court (EDNY), affirmed by the Second Circuit, were
egregiously wrong to dismiss opining that my “claims against the NLRB must be
dismissed” because “Plaintiff has not and cannot meet his burden to establish subject
matter jurisdiction over the NLRB General Counsel’s decisions” “not to prosecute”
this opinion is in contradiction to Michael C. McClintock’s persuasive elucidation of
the NRLA - this opinion is clearly in contradiction to the case law of other Circuits
and apparently the U.S. Supreme Court - this opinion seems to assume that all of the
NLRB decisions were made via a real General Counsel in contradiction to other
Circuit(s).

1. McClintock’s elucidation of the NRLA:
(“Assistant Professor of Law, Gonzaga University”) Michael C. McClintock in
Enterprise Labor and the Developing Law of Employee Job Rights-Part Two (“A
chapter from M. McClintock, NLRB General Counsel: “Unreviewable Power” to
Refuse to Issue an Unfair Labor Practice Complaint, 1973 (S.J.D. dissertation, in
preparation, SMU Law School)”) (Gonzaga Law Rev. (Vol. 8; p. 217-91 (1973)))
13

(retrieved via https://www.law.gonzaga.edu/law-review/files/2011/1 l/gonlr8.22.pdf)
persuasively argues against current case law stating (in p. 288-9 (located in Appendix
G)):
“The revision of section 3 (d) [of the NLRA] was meant by Congress to
effect a bipartite separation of NLRB functions. The General Counsel was to be
primarily an investigator and prosecutor, freed from any adjudicatory influence
of the five-member Board and its corps of independent trial examiners. He was
to be solely responsible for the issuance and prosecution of unfair labor practice
complaints. The authority of the General Counsel on these matters was to be
final; that is, the Board had absolutely no right to review. In other words, the
decision of the General Counsel to dismiss an unfair labor practice charge for
lack of merit is administratively final. The Board cannot second guess that
determination. His decision amounts to final agency action on the issue. This, in
effect, means that dismissals may properly be viewed as a final Board order
appealable under section 10(f) 626 since it is the final act of the Agency itself.
Further, there is a judicially construed presumption favoring review of
final agency actions under section 10 of the Administrative Procedure Act
(APA).627 The Supreme Court has held628 that the Congressional purpose to cut
off review must be persuasive; that is the Congressional intent must be shown
by clear and convincing evidence. Otherwise, the APA presumption of
reviewability comes into play and supplies the evidence of intent for review and
must be honored by the courts. Section 3(d) falls squarely within this category.
There is no clear and convincing evidence at all that Congress intended the
decisions of the General Counsel concerning refusals to issue complaints not to
be appealable under the terms and conditions enumerated by the APA. 629
Consequently, the APA mandates review.”

14

Even if McClintock’s position (regarding having an option for judicial review) would
not be accepted by the judiciary (in normal situations), my situation is exceptional.
Indeed, in BPL’s Memo of Law in Support of Its Motion to Dismiss (p. 11) (i.e.
Docket Number 63 (of 14-CV-7083 (SLT) (SMG))), BPL alleges “there does not
appear to be any authority directly addressing whether a federal district court may
exercise subject matter jurisdiction over a claim to review the NLRB's General
Counsel's decision not to issue an unfair labor practice complaint on jurisdictional
grounds” [Emphasis Added]. If someone was raped and a prosecutor refused to
prosecute the suspected rapist(s) “based solely on the belief that it lacks jurisdiction”
(and that “turns on a mistake of law”) (or “based solely on the” the race/religion of the
victim (/suspected perpetrator(s))) and the victim complained to the judiciary to
remand to the prosecutor for further processing then would the judiciary be able to
review despite prosecutorial discretion? Apparently, that is included in what was
raised (but unanswered) by the D.C. Circuit in the fourth footnote of Hourihan v.
National Labor Relations Board et al, 201 F.2d 187 (D.C. Cir. 1953)
(http://law.justia.eom/cases/federal/appellate-courts/F2/201/187/88194/#fn4_ref) (and
also in Footnote # 1 (http://openjurist.Org/298/f2d/330#fhl) of Retail Store Employees
Union Local Retail Clerks International Association v. Rothman, 298 F.2d 330 (D.C.
Cir 1962))
2. The Second Circuit’s Affirmation of the U.S. District Court fEDNY)
refusing to recognize that there is judicial review when the NLRB's General
Counsel's decision not to issue an unfair labor practice complaint is on
15

jurisdictional grounds, means that the Second Circuit is clearly in conflict
with other Circuits and apparently the U.S. Supreme Court.
Exceptions to “non-reviewability of the General Counsel's prosecutorial decisions” are
clearly enumerated in Section “III” of International Association ofMachinists and
Aerospace Workers v. A Lubbers, 681 F.2d 598 (9th Cir. 1982)
(http://openjurist.org/681/f2d/598/intemational-association-of-machinists-andaerospace-workers-v-a-lubbers) (Note: In a case against the General Counsel of the
NLRB, the 4th Circuit similar (to the 9th Circuit of Lubbers) stated “But, in Panama
Canal Co., the Court indicated that judicial relief is sometimes available where the
agency's failure to act turns on a mistake of law” [Emphasis Added] {Associated
Builders and Contractors Inc v. Irving, 610 F. 2d 1221 (4th Cir. 1979) (
http://openjurist.org/610/f2d/1221/associated-builders-and-contractors-inc-baltimoremetropolitan-chapter-v-r-irving)).

Moreover, the U.S. Supreme Court of Heckler v. Chaney, 470 U.S. 821 (1985)
refrained from reversing the U.S. Supreme Court of Rochester Telephone Corp. v.
United States, 307 U.S. 125,143 (1939) in the exceptional cases specified in the
footnote ; the footnote of Heckler v. Chaney, 470 U.S. 821 (1985) states:
“[ Footnote 4 ] We do not have in this case a refusal by the agency to institute
proceedings based solely on the belief that it lacks jurisdiction. Nor do we have
a situation where it could justifiably be found that the agency has "consciously
and expressly adopted a general policy" that is so extreme as to amount to an
abdication of its statutory responsibilities. See, e. g., Adams v. Richardson, 156
16

U.S. App. D.C. 267, 480 F.2d 1159 (1973) (en banc). Although we express no
opinion on whether such decisions would be unreviewable under 701(a)(2), we
note that in those situations the statute conferring authority on the agency might
indicate that such decisions were not "committed to agency discretion.
[Emphasis Added]
(http://caselaw.lp.findlaw.com/scripts/getcase.pl?court=US&vol=470&invol=821)
(Note: Indeed, in Massachusetts v. EPA, 549 U.S. 497 (2007), the U.S. Supreme Court
elucidated “in Heckler v. Chaney, 470 U. S. 821 (1985), we held that an agency’s
refusal to initiate enforcement proceedings is not ordinarily subject to judicial review.”
[Emphasis Added] (https://supreme.justia.com/cases/federal/us/549/497/opinion.html).
(By the way, in Massachusetts v. EPA, 549 U.S. 497 (2007) the U.S. Supreme Court
held of standing and subject matter jurisdiction “to challenge the EPA’s denial of their
rulemaking petition”.).)

Thus, given the reasoning for the exceptions to the “non-reviewability of the General
Counsel's prosecutorial decisions” clearly enumerated in the Ninth Circuit’s prior
decision in Lubbers and the footnote of Chaney Cwhich limited the reversal of
Rochester), the Ninth Circuit (as reasonable as 1+1=2) in Montana Air Chapter No. 29
v. FLRA, 898 F.2d 753 (9th Cir. 1990) subsequently stated:

“The Supreme Court in Chaney, however, suggested that discretionary
nonenforcement decisions may be reviewable when "a refusal by the agency to
institute proceedings [is] based solely on the belief that it lacks jurisdiction" or
"where it could justifiably be found that the agency has ’consciously and
expressly adopted a general policy’ that is so extreme as to amount to an
17

abdication of its statutory responsibilities." 470 U.S. at 833 n. 4, 105 S.Ct. at
1656 n. 4. Similarly, the D.C. Circuit has recognized two exceptions to the
general rule of unreviewability of agency nonenforcement decisions: 1) agency
nonenforcement decisions are reviewable when they are based on a belief that
the agency lacks jurisdiction, International Longshoremen's Ass'n v. National
Mediation Bd., 785 F.2d 1098, 1100 (D.C.Cir.1986); and 2) an agency's
statutory interpretations made in the course of nonenforcement decisions are
reviewable, International Union, United Automobile, Aerospace & Agricultural
Implement Workers v. Brock, 783 F.2d 237, 245 (D.C.Cir.1986). We find the
exceptions suggested by the Supreme Court in Chaney and by the D.C. Circuit
in Longshoremen and International Union apply in the present case. The
General Counsel's opinion letters strongly indicate that his decision was based
solely on the belief that he did not have jurisdiction to issue an unfair labor
practice complaint. We also find that the General Counsel promulgated a new
interpretation of a statute and of FLRA regulations in the course of his
decision.”
rhttp://openiurist.org/898/f2d/753/montana-air-chapter-no-association-of-civiliantechnicians-inc-v-federal-labor-relations-authoritvl (Note: In BPL’s Memo of Law in
Support of Its Motion to Dismiss (p. ll)(i.e. Docket Number 63 (of 14-CV-7083SLT-SMG (EDNY))) it states “See Clark v. Mark. 590 F. Supp. 1, 6 (N.D.N.Y.
1980)(“[t]he committee intends that the [FLRA’s] role in Federal sector-labormanagement relations be analogous to that of the National Labor Relations Board in
the private sector.”)(intemal citations omitted)”.)

Also in NLRB v. The Natural Gas Utility District ofHawkins County, Tennessee, 402
US 600 (1971), Supreme Court ruled against NLRB regarding whether or not an

18

employer is a political subdivision
(https://supreme.justia.com/cases/federal/us/402/600/):
"While the NLRB's construction of the statutory term is entitled to great
respect, there is no "warrant in the record" and "no reasonable basis in
law" for the NLRB's conclusion that respondent was not a political
subdivision. In the light of all the factors present here, including the fact
that the District is administered by individuals who are responsible to
public officials (thus meeting even one of the tests used by the NLRB),
respondent comes within the coverage of that statutory exemption.

»1?i

Furthermore, this Circuit, in Christ the King Regional High School v. Culvert, 815
F.2d 219 (2nd Cir. 1987) stated: “In the final analysis, it is for the courts, not the
NLRB, to determine what Congress intended the scope of NLRB jurisdiction to be.”
(http://openjurist.org/815/f2d/219/christ-the-king-regional-high-school-v-r-culvert-j ).
To be clear, we observe in Christ the judiciary determining the jurisdiction of NLRB
(contrary (i.e. not deferring! to NLRB I in order to rule on preemption - and so
apparently we may have the judiciary determining that NLRB has jurisdiction (in a
preemption case) despite an NLRB General Counsel who dismissed / refused to issue a
complaint(s) “based solely on the belief that it lacks jurisdiction”. To say that the
judiciary may determine jurisdiction contrary to the (General Counsel of) NLRB (in a
preemption case) but may not review the refusal of the (General Counsel of) NLRB to
issue a complaint “based solely on the belief that it lacks jurisdiction” would clearly
seem to say that the (General Counsel of) NLRB is above the law. If one would object,
that the refusal of the (General Counsel of) NLRB to issue a complaint is inaction such

19

an objection would be refuted by Rochester (which survived to the extent that Chaney
refrained from reversing Rochester (including “based solely on the belief that it lacks
jurisdiction”)). In Rochester Telephone Corp. v. United States, 307 U.S. 125, 143
(1939) the Supreme Court held:
"We conclude, therefore, that any distinction, as such, between 'negative' and
'affirmative' orders, as a touchstone of jurisdiction to review the Commission's
orders, serves no useful purpose, and insofar as earlier decisions have been
controlled by this distinction, they can no longer be guiding. The order of the
Communications Commission in this case was therefore reviewable."
nittp://caselaw,lp.fmdlaw.com/scripts/getcase.pl?court=US&vol=307&invol=125j In
addition, in Rochester, the Supreme Court elucidates:
"'Negative' has really been an obfuscating adjective in that it implied a search
for a distinction-non-action as against action-which does not involve the real
considerations on which rest, as we have seen, the reviewability of Commission
orders within the framework of its discretionary authority and within the
general criteria of justiciability. 26 'Negative' [307 U.S. 125, 142] and
'affirmative,' in the context of these problems, is as unilluminating and
mischief-making a distinction as the out-moded line between 'nonfeasance' and
'misfeasance'.27" and "An order of the Commission dismissing a complaint on
the merits and maintaining the status quo is an exercise of administrative
function, no more and no less, than an order directing some change in status.
The nature of the issues foreclosed by the Commission's action and the nature
of the issues left open, so far as the reviewing power of courts is concerned, are
the same."

20

(By the way, BPL has not waived any option for judicial review (including not
waiving the argument for preemption) if it would be unhappy with any decision issued
by NYSPERB (under the Taylor Law/SERA) (Note: (1) Regarding the “New York
State Labor Relations Act” “[t]he statute was renamed the New York State
Employment Relations Act in 1991” and “[effective July 22, 2010, the New York
State Employment Relations Board was abolished, and the Public Employment
Relations Board became responsible for administering the provisions of Article 20 of
the Labor Law” (http://www.perb.ny.gov/SERARule.asp). (2) My charges filed with
NYSPERB (against BPL/Union) are currently on hold with NYSPERB (Note: Docket
# 44 of 14-CV-7083-SLT-SMG (EDNY)).).) Also in New York City Employees'
Retirement Sys. v. SEC, 45 F.3d 7 (2d Cir. 1995), the Second Circuit stated

"Preliminarily, we must consider whether we have jurisdiction to hear
NYCERS's claim that the no-action letter violated the APA's notice and
comment procedures. It is true that agency decisions not to prosecute are not
reviewable because they are "generally committed to an agency's absolute
discretion." Heckler v. Chaney . 470 U.S. 821, 831 (1985L But it is equally true
that "[a] person ... adversely affected or aggrieved by agency action within the
meaning of a relevant statute, is entitled to judicial review thereof." 5 U.S.C. §
702."
|Yhttp://caselaw.lp.fmdlaw.com/scripts/getcase.pl?navbv=search&case=/data2/c
ircs/2nd/946072.htmh Docket No. 94-6072]
Furthermore, in Leedom v. Kyne, 358 U.S. 184 (1958) we see a situation of district
court jurisdiction over the NLRB in an exceptional situation (Note: Goethe House

21

N.Y., German Cultural Ctr. v. NLRB, 869 F.2d 75, 77-78, 80 (2d Cir. 1989)). In
addition, even the NLRB apparently admits (page 12 of Docket No. 30 (15-1799 (2nd
Cir.))) (Appendix H) that Montana Air “recognizes a jurisdictional exception” which
“supplies” “district courts with initial jurisdiction”. Also, (in the NLRB’s Reply to
Opposition (Docket No. 55 of 15-1799 (2nd Cir.))) (Appendix I) NLRB said that “the
exceptions discussed in Lubbers, like the Montana Air exception ... can only supply
initial jurisdiction to district courts, not courts of appeals” and NLRB said that Lubbers
(or some of Lubbers) is “derived from the Supreme Court’s decision in Leedom v.
Kyne, 358 U.S. 184 (1958)” . However, NLRB attacked Montana Air (9th Cir) (pg 14
of Docket No. 30 (15-1799 (2nd Cir.))) (Appendix H):
“For this very reason, the exception recognized by Montana Air was flatly
rejected by the D.C. Circuit. See Patent Office ProflAss'n v. FLRA, 128 F.3d
751, 753 (D.C. Cir. 1997) (“POPA”). In POPA, the D.C. Circuit explained that
Montana Air* s holding was based on a faulty interpretation of the Supreme
Court’s footnote in Heckler.”
and continued by quoting from the D.C. circuit that
“it remains the law of this circuit [NOT like Montana Air (9th Cir)] that a
decision of the General Counsel of FLRA not to file a complaint is not
judicially reviewable ... Nothing in Heckler - and especially not the
Association’s favored footnote-affects the reviewability of decisions of the
General Counsel under the Labor-Management Relations Act...”

So the Second Circuit (who changed from Christ to Pilchman) and the D.C. Circuit
(who changed from Longshoremen's to POPA) are in disagreement with Fourth Circuit

22

(Irving), the Ninth Circuit (Lubbers and Montana Air), and the U.S. Supreme Court of
Rochester Telephone Corp. v. United States, 307 U.S. 125, 143 (1939) (which
survives to the extent that it was not reversed by the U.S. Supreme Court in the
exceptional cases of the fourth footnote of Heckler v. Chaney, 470 U.S. 821 (1985)).
Also, in Heckler, Justice Marshall warned
(https://supreme.justia.com/cases/federal/us/470/821/):
“Easy cases at times produce bad law, for in the rush to reach a clearly ordained
result, courts may offer up principles, doctrines, and statements that calmer
reflection, and a fuller understanding of their implications in concrete settings,
would eschew. In my view, the "presumption of unreviewability" announced
today is a product of that lack of discipline that easy cases make all too easy.
The majority, eager to reverse what it goes out of its way to label as an
"implausible result," ante at 470 U. S. 827, not only does reverse, as I agree it
should, but along the way creates out of whole cloth the notion that agency
decisions not to take "enforcement action" are unreviewable unless Congress
has rather specifically indicated otherwise. Because this "presumption of
unreviewability" is fundamentally at odds with rule-of-law principles firmly
embedded in our jurisprudence, because it seeks to truncate an emerging line of
judicial authority subjecting enforcement discretion to rational and principled
constraint, and because, in the end, the presumption may well be
indecipherable, one can only hope that it will come to be understood as a relic
of a particular factual setting in which the full implications of such a
presumption were neither confronted nor understood.”

Thus, in mv situation, it clearly seems that there is judicial reviewability

23

In short, under certain exceptional cases (such as “when "a refusal by the agency to
institute proceedings [is] based solely on the belief that it lacks jurisdiction" or "where
it could justifiably be found that the agency has 'consciously and expressly adopted a
general policy' that is so extreme as to amount to an abdication of its statutory
responsibilities."”) the refusal of the General Counsel of NLRB to issue a complaint is
subject to judicial review in federal court (as indicated in Montana Air Chapter No. 29
v. FLRA, 898 F.2d 753 (9th Cir. 1990). In addition, the Court may exercise
supplemental jurisdiction, regarding the denial(s)/dismissal(s) of NYSPERB (Note:
The Taylor Law (aka Public Employees' Fair Employment Act)
(http://www.perb.ny.gov/stat.asp) - especially NY Civil Service Law § 209-a.4 (c)
(http://codes.lp.fmdlaw.com/nycode/CVS/14/209-a)). (Clarification: In all of my
dismissed charges with NLRB against both BPL and the Union that are part of the
Complaint seeking judicial review in 14-CV-7083 (EDNY) (17-1697 (L) (2nd Circ.)),
the only reason ever offered bv NLRB for the dismissal was on jurisdictional grounds.
Similarly, in terms of the Complaint seeking judicial review in 15-CV-3176 (EDNY)
(20-52 (CON) (2nd Circ.)), of subsequent charges denied by the NLRB, regarding
BPL the only reason ever offered for a denial was on jurisdictional grounds, but
regarding my last charge against the Union - and only regarding that one charge - an
additional reason was offered - to quote from the Complaint [of 15-CV-3176
(EDNY)]:
“In a letter dated May 15, 2015, from Richard F. Griffin, Jr. (General Counsel,
NLRB) (By: Deborah M.P. Yaffe (Director, Office of Appeals)) it states “we

24

deny your motion and this matter remains closed” (Exhibit # 4). However, in
this letter it states “With respect to the charge against the Union, in addition to
the lack of Board jurisdiction over the matter, there was no evidence that the
Union failed to challenge the arbitration award with respect to the modification
you seek based on unlawful considerations” (Exhibit # 4). Even if this would
mean that with respect to the Union charge (29-CB-142385), the Motion for
Reconsideration was not denied “based solely on the belief that it lacks
jurisdiction”, the documentation indicates that the Regional Director’s dismissal
(Exhibit # 2) and the denial of my appeal from the NLRB’s General Counsel
(by the Director of the Office of Appeals) (Exhibit # 3) was “on the belief that it
lacks jurisdiction” - and no other basis is indicated. Indeed, with respect to
charge (29-CB-142385), regardless of whether or not this Court would hold that
there is no longer “based solely on the belief that it lacks jurisdiction”, I object
that there is a failure of due process because the allegation that “there was no
evidence that the Union failed to challenge the arbitration award with respect to
the modification you seek based on unlawful considerations” was never raised
when the charge was dismissed at the Regional level or even during denial of
my appeal from the NLRB’s General Counsel (by the Director of the Office of
Appeals). If such an allegation was never raised during the dismissal and during
the denial of my appeal then what type of opportunity was I provided to address
it? (Note: Rules and Regulations of the NLRB (Section 102.19)
(http://www.nlrb.gov/sites/default/files/attachments/basic-page/node1717/rules_and_regs_part_102.pdf)). Moreover, at http://www.nlrb.gov/whowe-are/general-counsel/richard-f-griffin-jr it states that “Mr. Griffin previously
served as General Counsel for International Union of Operating Engineers
(IUOE). He also served on the board of directors for the AFL-CIO Lawyers
Coordinating Committee, a position he held since 1994”; at
http://www.iuoe.org/about-iuoe, it states “IUOE is the 10th largest union in the
AFL-CIO”. In any event, any dismissal and denial regarding the charge of 2925

CA-142419 (as well as regarding every other charge that I filed (except for the
one charge (29-CB-142385))) have been clearly (at least purportedly) “based
solely on the belief that it lacks jurisdiction”.”
Thus, there is an extreme need for the U.S. Supreme Court to please reverse both the
dismissal of the complaint of 14-CV-7083 (EDNY) (17-1697 (L) (2nd Circ.)) and the
dismissal of the complaint of 15-CV-3176 (EDNY) (20-52 (CON) (2nd Circ.))
Furthermore, I emailed the Inspector General of the NLRB on January 8, 2014 “Is the
NLRB (Richard Griffin? Deborah Yaffe? ...) retaliating against me (for my
communication below ...)? It goes without saying that retaliatory/discriminatory
behavior should not be tolerated.” (Appendix K). However, when I tried to find out
what happened I was not successful; in the letter that I received from James E. Tatum,
Jr. (Counsel to the Inspector General, NLRB) (in response to my FOIA request(s)), the
NLRB seems to neither confirm nor deny the existence of the Office of Inspector
General records that I requested (and that if they do exist they are refusing to provide
me with them) (Exhibit # 2 of Docket # 14 of 15-CV-3176-SLT-SMG (EDNY))
(Appendix J). Also, in Document # 168 (10/22/2020) of 15-1799 (2nd Cir.) when the
NLRB submitted what purports to be a certified administrative record - it did not
include from the Inspector General! Shockingly in response to my question “If a
General Counsel would admit to refusing to issue a complaint on the basis of my
race/religion then would the defendants still maintain that the General Counsel’s
decision would be unreviewable?” (i.e. Docket Number 57 (of 14-CV-7083-SLT-SMG
(EDNY))), the BPL in its Reply Memorandum of Law in Further Support of its

26

Motion to Dismiss (i.e. Docket Number 65 of 14-CV-7083-SLT-SMG (EDNY)) (in
footnote #8) explicitly stated “the answer to the question would be yes”. (Note:
Although less blatant, NLRB in page 4 of its “REPLY TO OPPOSITION [48]” (dated
July 24, 2015) (i.e. Docket No. 55 (of 15-1799 (2nd Cir.))), seems to agree with BPL’s
shocking answer. Yet the Second Circuit in its affirmation of the EDNY district court
dismissals states that “Pilchman does not allege any constitutional violations by the
NLRB”; however, it is known that I am a pro se (diagnosed with mental disability) and
pro se litigants are not expected to be as artful. Furthermore, I was never given any
opportunity to amend any of my Complaints. It is also noteworthy that the Circuit in
its affirmation to dismiss my U.S. district court complaints highlighted that the APA
provides for judicial review initiated at the Circuit level; however, the Second Circuit
also dismissed my petition for review (15-1799 (2nd Cir.)) (Appendix L) initiated at the
Second Circuit level seeking judicial review of the same charges dismissed by NLRB
as my Complaint of 15-CV-3176 (EDNY). Indeed, according to my recollection I filed
my Complaint of 15-CV-3176 (EDNY) on the same day as my petition for review of
15-1799 (2nd Cir.). In addition, I was never offered any option to transfer from the
District Court to the Circuit Court; in contrast in Goldlawr, Inc. v. Heiman, 369 U.S.
463 (1962) it states
’’When a lawsuit is filed, that filing shows a desire on the part of the plaintiff to
begin his case, and thereby toll whatever statutes of limitation would otherwise
apply. The filing itself shows the proper diligence on the part of the plaintiff
which such statutes of limitation were intended to insure. If, by reason of the
uncertainties of proper venue, a mistake is made, Congress, by the enactment of
27

§ 1406(a), recognized that "the interest ofjustice" may require that the
complaint not be dismissed, but rather that it be transferred in order that the
plaintiff not be penalized by what the late Judge Parker aptly characterized as
"time-consuming and justice-defeating technicalities. mi
(— https://supreme.justia.com/cases/federal/us/369/463/)

3. Even if there would never be judicial review of the NLRB’s General
Counsel dismissal of a charge / refusal to issue a complaint: what if there
would be an invalidly appointed General Counsel? This opinion seems to
assume that all of the NLRB decisions were made via a real General
Counsel in contradiction to other Circuit/s). However, some of my charges
with the NLRB were dismissed by Lafe Solomon who the judiciary Tin the
Ninth Circuit) opined was not a valid General Counsel.
At “http://www.littler.com/labor-relations-counsel/federal-judge-rules-nlrb-actinggeneral-counsel-lafe-solomon%E2%80%99s-appointment-i” it states that “a federal
court has determined that National Labor Relations Board Acting General Counsel
(GC) Lafe Solomon was not properly appointed to his position. Hooks v. Kitsap
Tenant Support Services Inc., Case No. CV-13-5470BHS (W.D. Wash. Aug. 15,
2013)” and “Judge Settle also ruled that Solomon’s appointment was invalid.
Accordingly, Solomon could not have lawfully delegated authority to Regional
Director” and that “the Board lacked a properly appointed quorum of at least three
members.” Indeed, the United States Supreme Court in National Labor Relations
Board v. Noel Canning, 573 U.S.

(2014) unanimously ruled as unconstitutional

the appointments of Sharon Block, Richard Griffin, and Terence Flynn to the National
Labor Relations Board (http://en.wikipedia.org/wiki/NLRB_v._Noel_Canning). (Note:

28

(1) Many of my charges filed in the NLRB were ‘dismissed’ etc. during the time that
Lafe Solomon was ‘Acting General Counsel’. At “http://www.nlrb.gov/who-weare/general-counsel/lafe-solomon” it stated “Lafe Solomon, a career NLRB attorney,
was named Acting General Counsel by President Obama as of June 21,2010, and
served in this capacity until November 4, 2013.” (2) In 5 U.S. Code § 706
(https://www.law.comell.edU/uscode/text/5/706) it states “The reviewing court shall
.. .compel agency action unlawfully withheld or unreasonably delayed”) Also, even if
there would be “any potential ripeness issues in this case” that would not seem
relevant to subject matter jurisdiction; in Amador County v. Kenneth Lee Salazar
(2011), the U.S. Court of Appeals (D.C. Circuit) stated “with Oryszak v. Sullivan, 576
F.3d 522, 524-26 (D.C. Cir. 2009) (clarifying that the committed to agency discretion
limitation and the final agency action requirement are “not.. .jurisdictional bar[s]”)”
(http://www.cadc.uscourts.gov/intemet/opinions.nsf/48B9B671A97ElAlE852578880
04E2303/$file/l 0-5240-1306587.pdf). In addition, in (
http://openjurist.org/759/f2d/905) Eagle-Picher Industries Inc v. United States
Environmental Protection Agency (1985) (759 F. 2d 905) the U.S. Court of Appeals
(D.C. Circuit) stated “the primary focus of the ripeness doctrine as it concerns judicial
review of agency action has been a prudential attempt to time review in a way that
balances the petitioner's interest in prompt consideration of allegedly unlawful agency
action against the agency's interest in crystallizing its policy before that policy is
subjected to judicial review and the court's interests in avoiding unnecessary
adjudication and in deciding issues in a concrete setting.” In
29

(http://openjurist.org/387/us/136) Abbott Laboratories v. John W. Gardner (1967)
(387 U.S. 136) the U.S. Supreme Court stated:
“Without undertaking to survey the intricacies of the ripeness doctrine15 it is
fair to say that its basic rationale is to prevent the courts, through avoidance of
premature adjudication, from entangling themselves in abstract disagreements
over administrative policies, and also to protect the agencies from judicial
interference until an administrative decision has been formalized and its effects
felt in a concrete way by the challenging parties. The problem is best seen in a
twofold aspect, requiring us to evaluate both the fitness of the issues for judicial
decision and the hardship to the parties of withholding court consideration. ...
The cases dealing with judicial review of administrative actions have
interpreted the 'finality' element in a pragmatic way. ... Two more recent cases
have taken a similarly flexible view of finality.”
At http://www.thecre.com/cre-litigation/00-2604_MtD_010322.html it states:

An agency’s own characterization of finality is not decisive in determining
when "final agency action" has occurred for purposes of appellate review.
Appalachian Power, supra, 208 F.3d 1015, 1022-23 (D.C. Cir. 2000) (rejecting
EPA characterization of science policy guidance as non-final); Natural
Resources Defense Council v. EPA. 22 F.3d 1125, 1132-33 (D.C. Cir. 1994);
Carter/Mondale Presidential Campaign v. Federal Election Comm’n. 711 F.2d
279, 289 & n. 17 (D.C. Cir. 1983) (citing Fidelity Television. Inc, v. FCC. 502
F.2d443, 448 (D.C. Cir. 1974)); American Farm Bureau v. EPA. 121 F. Supp.
84, 105-106 (D.D.C. 2000) (holding EPA science policy was final agency
action for purposes of surviving motion to dismiss); see also Dow Chem..
U.S.A. v. Consumer Product Safety Comm’n. 459 F. Supp. 378, 384 & n.5,
385-87 (W.D. La. 1978) (holding that "interim policy statement", pursuant to

30

which CPSC had made "provisional classification" of perchlorethylene as
Category A carcinogen, was final agency action). Whether final agency action
has occurred for purposes of APA review should not depend on semantic
characterizations but rather on a "realistic assessment of the nature and effect"
of the agency action. Fidelity Television, supra, 502 F.2d at 448.”
C.

There is also (under the First (and Fourteenth) Amendment(s) of the U.S.
Constitution (and its analogous New York State law)) subject-matter
jurisdiction and the statement of a claim upon which relief can be granted in
terms of the undisputed facts that the Brooklyn Public Library (BPL) suspended
me without pay for 10 days for its belief that I posted and failed to remove
postings on a website and BPL’s termination of my employment because of my
email appealing the Step II decision to suspend me without pay for 10 days.
Indeed, in “Clarifying Bounds of Protected Speech for Public Employees” New

York Law Journal (Volume 253 No. 56; Wednesday, March 25, 2015) (by Martin
Flumenbaum and Brad S. Karp)) it states “On Feb. 28, 2012, plaintiff, NYPD police
officer Craig Matthews, filed a complaint under 42 U.S.C. §1983 alleging that the City
of New York retaliated against him in violation of the First Amendment to the U.S.
Constitution and Article I, §8 of the New York State Constitution; similarly I should
also be able to seek redress by filing a complaint under 42 U.S.C. §1983 alleging that
the Library retaliated against me in violation of the 1st Amendment to the U.S.
Constitution and Article I, §8 of the New York State Constitution - in particular, as
elucidated and cited, in this article, the Second Circuit decision of “Matthews v. City

31

ofNew York, No. 13-2915-cv, 2015 WL 795238 (2d Cir. Feb. 26, 2015)”
(http://caselaw.fmdlaw.com/us-2nd-circuit/1693143.html). Should the objection be
raised that (unlike the NYPD) the Brooklyn Public Library is not a public employer,
this objection would not seem relevant based on the information that I received from
Gene Eisner, Esq. (who has been practicing law for more than 50 years); Mr. Eisner
compared the Brooklyn Public Library to the Port Authority and cited a case he
successfully litigated in the SDNY and Second Circuit - Wolin v. Port ofNew York
Authority. In Wolin v. Port ofNew York Authority, 392 F.2d 83 (2d Cir. 1968)
(http://openjurist.org/392/f2d/83/wolin-v-port-of-new-york-authority), in which this
Circuit held of the applicability of the First Amendment with regard to the Port ofNew
York Authority (Note: “cert, denied 393 U.S. 940, 89 S.Ct. 290, 21 L.Ed.2d 275
(1968)”—
https://law.resource.org/pub/us/case/reporter/F2/436/436.F2d.618.24732_l.html). To
be clear, how would a posting (which is NOT done via any power & time as an
employee) on a (NOT employee) website or even private (NOT employee) email sent
to email accounts of BPL / government officials (given the public’s ability to also send
such email) have any less protection under the First Amendment than the areas of the
Port Authority that the public has access to (in which Wolin etc. was (unlawfully)
given punitive treatment for distribution of literature critical of the Vietnam War)? In
Wolin v. Port ofNew York Authority, 392 F.2d 83 (2d Cir. 1968), the Second Circuit
held of the applicability of the First Amendment with regard to the Port ofNew York
Authority (Note: “cert, denied 393 U.S. 940, 89 S.Ct. 290, 21 L.Ed.2d 275 (1968)”)
32

stating that “the Terminal is dedicated to the public use, to no less a degree than the
streets of a company owned town, Marsh v. State of Alabama, 326 U.S. 501, 66 S.Ct.
276, 90 L.Ed. 265 (1946)” and yet, in my situation, the Second Circuit affirmed the
U.S. District Court not applying the First Amendment with regard to the Brooklyn
Public Library - in contradiction to the U.S. Supreme Court decision of Marsh v. State
of Alabama. 326 U.S. 501. 66 S.Ct. 276. 90 L.Ed. 265 (1946).

D.

Thus, the U.S. Supreme Court should please reverse the horrific 2nd Circuit
affirmation and
(1) the wrong decision of late U.S. District Court Judge Townes (14-CV-7083

(EDNY)) that it is impossible to establish “subject matter jurisdiction over the NLRB
General Counsel’s decisions and” thus my “claims against NLRB must be dismissed”
(and thus Judge Townes decided that my “claims against the remaining Defendants
must also be dismissed”).
(2) the horrific decision of the late U.S. District Court Judge Townes (14-CV-7083
(EDNY)) to not allow me (a pro se diagnosed with mental disabilities) even one
opportunity to amend my complaint because “any amendment would be futile”. This is
not true because arguendo even if there would be lack of subject matter jurisdiction
over the NLRB, I still could have amended the Complaint to seek redress for BPL’s
termination of my employment in violation of my rights under the First (and
Fourteenth) amendment(s) of the U.S. Constitution (as well as supplementally under
the NYS Constitution) in adherence to Marsh. Should one argue that I already had
33

filed the complaint (15-CV-3641 (EDNY)) against BPL seeking redress for violation
of my rights under the First Amendment etc., please note that the BPL is arguing claim
spitting against me and if the judiciary agrees with BPL then at least I should be
granted the opportunity to amend. In addition, arguendo even if there would be lack of
subject matter jurisdiction over the NLRB, I still could have amended the Complaint to
seek redress for the Union’s breach of the duty to provide fair representation (DFR);
indeed, if I am not able to seek redress for breach of DFR via NLRB and NYSPERB,
the only remaining option is apparently via the judiciary. To quote the U.S. Supreme
Court "Rule 15(a) declares that leave to amend "shall be freely given when justice so
requires"; this mandate is to be heeded." — Foman v. Davis, 371 U.S. 178, 182, 83
S.Ct. 227, 230, 9 L.Ed.2d 222 (1962) (https://casetext.com/case/foman-v-davis )
(Citation from https://casetext.com/case/branum-v-clark)
(3) both horrific decisions of U.S. District Court Judge Kuntz to dismiss Case
15-CV-3176 (EDNY) taking the position that “the Complaint fails to state a claim
upon which relief can be granted” and the order of U.S. District Court Judge Kuntz to
dismiss Case 15-CV-3641 (EDNY) taking the position that “the Complaint fails to
state a claim upon which relief can be granted”. Although, Judge Kuntz’s elucidates
the concept of dismissal of a complaint under Rule 12(b)(6) I disagree with Judge
Kuntz’s unexplained application of Rule 12(b)(6) to my complaint:
(i) In terms of dismissal of charges by NLRB / NYSPERB for alleged lack of
jurisdiction, I previously elucidated that judicial review should be granted here (in this
exceptional situation).
34

(ii) In terms of the First Amendment etc., Judge Kuntz (and the 2nd Circuit) is
obligated to continue to follow the U.S. Supreme Court in Marsh (like the 2nd Circuit
did in Wolin).
(iii) Furthermore, Judge Kuntz did not allow me (a pro se diagnosed with mental
disabilities) even one opportunity to amend my complaint in Case 15-CV-3176
(EDNY) and in Case 15-CV-3641 (EDNY); in addition, to what I previously
elucidated (regarding amending to seek redress of violation of my rights under the
First (and Fourteenth) Amendment of the U.S. Constitution (and its analogous NYS
law) and for breach of DFR), I requested the opportunity to amend to receive redress
for BPL’s violation of my rights under the ADA (Americans with Disabilities Act)
(Note: Although there is a subsequent case (17-CV-126 (EDNY)) (not part of this
consolidated appeal) that was dismissed (by U.S. District Court Judge Kuntz)
regarding the ADA (in terms of the wrongful termination of my employment), the
amendment sought here deals with another violation of the ADA (i.e. the Library’s
demand that I be examined by one of their ‘mental health professionals] ’ to be
reinstated (as ordered by an Arbitrator’s award) despite my already providing the
Library with medical documentation that I may return to work at full duty from my
treating physicians including my psychiatrist (Note: Arguendo that there would be any
legitimate need to determine my fitness for work such a determination must not be a
requirement for reinstatement in a wrongful termination - rather it would be a
requirement to go from being on medical leave to being on active full duty work.
Obviously it seems totally unreasonable to refuse to accept the determination of my
35

treating physicians and simultaneously require that I select from one of the Library’s
three ‘mental health professionals]’ - an unreasonable requirement that (to my
knowledge) the Library only required of me)) and the amendment sought would be to
amend a complaint that was originally filed within the time limit of the right to sue
letter(s) (Note: The right to sue letter(s) regarding the unlawful mechanism of
reinstatement were issued by the EEOC before the right to sue letter(s) regarding the
unlawful termination.). To quote from Appendix O (i.e. Memo of Opposition (w/cross
Motions) in 15-CV-3641)
Arbitrator Howard C. Edelman, Esq. stated (in page 18 of his Opinion and
Award) (Exhibit # 2) that “The Library did not have just cause to discharge
Robert Pilchman on or about April 26, 2013” and that “Robert Pilchman shall
be reinstated provided that a mental health professional, selected in accordance
with the procedure set forth herein, certifies he is fit for duty”; even if arguendo
Arbitrator Howard C. Edelman, Esq. allowed BPL or even required BPL to do
what BPL has done, that would still NOT in any way detract from my ability to
seek redress for the violation of my rights under the ADA - as evident from
what I elucidated in (pages 12 - 46 and 69 - 78 of) a Post-Hearing Brief (dated
December 9, 2015) (Exhibit # 3).
(Note: Exhibit # 3 of Appendix O is in Appendix N as Exhibit # 3: please see pages
12-46 and 69-78 of the Post-Hearing Brief (dated December 9. 20151 In a nutshell. I
was not a party to the arbitration, the arbitration is limited to what was agreed upon to
arbitrate, must be regarding the Collective Bargaining Agreement, the award may not
violate or even adjudicate statutes (including the ADA), and it does limit my rights to
seek redress under U.S. and New York law via the judiciary etc. - as for example the

36

U.S. Supreme Court elucidated in the three cases known as the Steelworkers trilogy.)
(Note: Regarding, 17-CV-126 (EDNY): After I started to litigate against NYSDHR in
15-CV-3176 (EDNY), the NYSDHR clearly seems to have retaliated against me by
allowing BPL (a codefendant) to get with its termination of my employment in
violation of my rights as a protected class - most blatantly disability- under the New
York State Human Rights Law. I attempted to correct this situation by filing a petition
for review in the NYS Supreme Court and a Complaint in the U.S. District Court (17CV-126 (EDNY)). After the NYS Supreme Court transferred my case to the NYS
Appellate Division and I waited to receive due process not realizing that I needed to
provide the NYS Appellate Division with a certain number of copies of my petition;
after failing to do this I eventually learned from BPL in submission to the U.S. District
Court that that the NYS Appellate Division dismissed my case for failing to ‘perfect’
my appeal and then Judge Kuntz dismissed 17-CV-126 (EDNY) including under the
ADA for what apparently is purportedly res judicata given the adjudication under the
NYS Human Rights law. I did not appeal this decision of Judge Kuntz because I am
pessimistic that the Second Circuit would provide any meaningful help and it would
cost like $500 to file for appeal. In any event, the U.S. Supreme Court should allow me
to amend to seek relief under the ADA for this particular claim because this is a claim
that res judicata could not even possibly be applicable to because while the ADA
offers protection against inappropriate medical inquiry, the NYS Human Rights law
not only - does not offer any protection but does the opposite. To quote from the NYS
Human Rights law (Appendix W) “The employee must cooperate in providing medical
37

or other information that is necessary to verify the existence of the disability or
pregnancy-related condition, or that is necessary for consideration of the
accommodation.” Whereas (Sec. 12112 (d) "Medical examinations and inquiries" of)
the ADA (Appendix V) provides me with robust protection “(1) In general. The
prohibition against discrimination as referred to in subsection (a) of this section shall
include medical examinations and inquiries. ...” and is against the horrific Brooklyn
Public Library and Union mechanism of assessment for reinstatement 'awarded' by
their arbitrator. So for the claim I want added in the amended Complaint(s) I request
leave to submit, there is no deference to assume for the NYSDHR because the
NYSDHR is limited to enforcing only the NYS Human Rights law - not any federal
statutes (such as the ADA) and not any NY City laws - and the NYS Human Rights
law does not offer the protections against medical inquiry offered by the ADA)

It goes without saying that I shouldn’t be penalized for failing to follow any rule of
Judge Kuntz because at the time of submission of my Memos of Opposition (and any
Cross Motions) the cases (14-CV-7083 (EDNY), 15-CV-3176 (EDNY), and 15-CV3641 (EDNY)) were still assigned to Judge Townes and it was only after Judge
Townes passed away that the cases (14-CV-7083 (EDNY), 15-CV-3176 (EDNY) and
15-CV-3641 (EDNY)) were assigned to Judge Kuntz.)
(iv) Similarly, I made a cross motion but was not granted an opportunity to file any
supplemental complaint to seek redress for violation of my rights under FOIA / FOIL
(Note: There may have been an initial deficiency in terms of FOIA / FOIL for failure
38

to exhaust administrative remedies at the time of the initial complaint; however, when
I requested an opportunity to file a supplemental complaint, my administrative
remedies were exhausted.). I also never had discovery.

E.

I addressed the Motions to Dismiss of the Defendants in my Memorandums of
Opposition (and Cross Motions) (in the EDNY) (located in Appendix M, N, and
0). For example, in Appendix N (i.e. pages 8-13 of my Memo of Opposition
(and Cross Motions) in Case 15-CV-3176 (EDNY)) I address New York State’s
argument for dismissal because of sovereign immunity.

F.

"We cannot say with assurance that under the allegations of the pro se
complaint, which we hold to less stringent standards than formal pleadings
drafted by lawyers, it appears "beyond doubt that the plaintiff can prove no set
of facts in support of his claim which would entitle him to relief." Conley v.
Gibson, 355 U.S. 41, 45-46 (1957)." — (https://casetext.com/case/haines-vkemer-8212-5025#p520; https://casetext.eom/case/branum-v-clark#p705) (
Haines v. Kerner, 404 U.S. 519, 520-21, 92 S.Ct. 594, 595-96, 30 L.Ed.2d 652
(1972).)

CONCLUSION
The petition for a writ of certiorari should be granted.

39

Sincerely,
p

Robert Pilchman
Date: June 1, 2021

?

♦

r0'

<»

40

